            Office of Inspector General




                                    September 30, 2005

                                    ELLIS A. BURGOYNE
                                    VICE PRESIDENT, DELIVERY AND RETAIL

                                    STEPHEN M. KEARNEY
                                    VICE PRESIDENT, PRICING AND CLASSIFICATION

                                    NICHOLAS F. BARRANCA
                                    VICE PRESIDENT, PRODUCT DEVELOPMENT

                                    SUBJECT: Management Advisory – Benchmarking of
                                             Parcel Surcharges
                                             (Report Number DR-MA-05-001)

                                    This report presents the results of our benchmarking review
                                    of the Postal Service’s Parcel Surcharges (Project Number
                                    05YG029DR000). Specifically, we determined how Federal
                                    Express (FedEx), United Parcel Service (UPS), and DHL1
                                    assess surcharges on parcels. In addition, we determined
                                    whether the Postal Service could use a more effective and
                                    less complex method to assess surcharges.

                                    The former vice president, Delivery and Retail requested
                                    this audit based on our ongoing audit of Balloon Rate and
                                    Parcel Surcharges (Project Number 05YG016DR000).

Results in Brief                    FedEx, UPS, and DHL have similar types of surcharges
                                    and use package dimensions and weight to assess the
                                    shipping cost. However, their surcharge categories are
                                    much simpler than the Postal Service’s. The Postal Service
                                    could benefit from enhancing the Point-of-Service ONE
                                    (POS ONE) system to prompt retail associates to enter
                                    package dimensions when assessing surcharges.

1
 Per the 2004 Annual Report, DHL was named for the first letters of the last names of the three company founders,
Adrian Dalsey, Larry Hillblom and Robert Lynn.
Benchmarking of Parcel Surcharges                                                                        DR-MA-05-001



                                    Updating the POS ONE system would ensure the Postal
                                    Service is receiving the appropriate surcharge revenue.

                                    In addition, FedEx, UPS, and DHL use Internet rate
                                    calculators that require customers to enter package
                                    dimensions and weight to estimate shipping costs.
                                    However, the Postal Service’s Internet rate calculator
                                    requires customers to enter package weight, not dimensions,
                                    unless they select the large package option. As a result,
                                    customers who use the Internet to estimate the cost to ship a
                                    package may calculate the cost incorrectly.

                                    We suggested the vice president, Delivery and Retail,
                                    coordinate with the vice president, Pricing and
                                    Classification, to simplify the method of categorizing
                                    surcharges. We also suggested the vice president,
                                    Delivery and Retail, enhance the POS ONE system to
                                    prompt retail associates to enter package dimensions to
                                    calculate the correct shipping costs. In addition, we
                                    suggested the vice president, Delivery and Retail,
                                    coordinate with the vice president, Pricing and
                                    Classification, and vice president, Product Development, to
                                    modify the Internet rate calculator to require customers to
                                    enter package dimensions to calculate the correct shipping
                                    costs.

                                    Management agreed with the intent of suggestions 1 and 2
                                    and has planned corrective actions that are responsive to
                                    our suggestions. Management did not agree with
                                    suggestion 3, but their planned actions are responsive to
                                    our finding. Management’s comments, in their entirety, are
                                    included in Appendix C of this report.

Background                         Packages shipped through the Postal Service, FedEx, UPS,
                                   or DHL retail sites require a surcharge when they meet
                                   certain dimension and weight requirements. The packages
                                   are usually weighed and measured to ensure the proper
                                   cost is assessed to the customer. Figures 1 and 2 below
                                   show the most common method used to determine package
                                   dimensions2 (measuring length3 and girth4 of a four-sided or
                                   three-sided package).5

2
  A package’s dimensions are its length, width, height, and girth.
3
  Length is the longest side of a package.
4
  Girth is the distance all the way around a package at its widest point, measured at a right angle from the length.
5
  Postal Service Quick Service Guide 050, Basic Mailability and Processing Categories.




                                                            2
Benchmarking of Parcel Surcharges                                                                       DR-MA-05-001




                                   Figure 1. Four-sided package               Figure 2. Three-sided package




                                   In calendar year 2003, UPS led the national industry in
                                   courier, express, and parcel services with 46.5 percent of
                                   the market, followed by FedEx with 27 percent of the
                                   market, the Postal Service with 12.7 percent of the market,
                                   and DHL with 6.8 percent of the market.6 Table 1 shows the
                                   annual revenue for domestic ground transportation package
                                   services for UPS, FedEx, and the Postal Service and
                                   Table 2 shows the average daily package volume. We
                                   could not obtain the same information for DHL because its
                                   annual report did not provide this data.7

                                   Table 1. Annual Revenue for Ground Transportation Package Services
                                                               FY 2002           FY 2003             FY 2004
                                      UPS                      $15,707,000      $16,460,000          $17,409,000
                                      FedEx                     $2,918,000       $3,581,000           $3,910,000
                                      Postal Service            $2,080,000       $2,216,000           $2,207,000
                                      DHL                         Data not         Data not             Data not
                                                                  available        available            available

                                     Source: UPS, FedEx, Postal Service, and DHL 2004 Annual Reports




6
 This information was obtained from the Deutsche Post World Net 2004 Annual Report.
7
 DHL is a Deutsche Post World Net company with corporate offices in Germany. The Deutsche Post World Net
consists of mail, express, logistics, and financial services and the company files consolidated financial statements.




                                                           3
Benchmarking of Parcel Surcharges                                                                DR-MA-05-001




                                    Table 2. Average Daily Ground Transportation Package Volume
                                                              FY 2002           FY 2003       FY 2004
                                        UPS                    10,112,000       10,268,000    10,676,000
                                        FedEx                   1,755,000        2,168,000     2,285,000
                                        Postal Service          1,075,000        1,129,000     1,132,000
                                        DHL                      Data not         Data not      Data not
                                                                 available        available     available

                                     Source: UPS, FedEx, Postal Service, and DHL 2004 Annual Reports


Objectives, Scope,                  We determined how FedEx, UPS, and DHL assessed
and Methodology                     surcharges on packages. In addition, we determined
                                    whether the Postal Service could use a more effective and
                                    less confusing method to assess surcharges.

                                    We administered a benchmarking questionnaire to a
                                    representative of UPS and used service guides and annual
                                    reports found on the Internet to answer some questions for
                                    DHL and FedEx.8 We also administered the benchmarking
                                    questionnaire to Postal Service representatives in the
                                    Eastern Area and Pittsburgh District office. To facilitate the
                                    interviews, we divided the questionnaire into three sections:
                                    types of surcharges, the process employees use to assess
                                    surcharges, and the process used to educate customers.

                                    To determine how FedEx, UPS, and DHL applied
                                    surcharges to packages, we conducted observations at the
                                    retail sites of each company in the Washington, D.C.,
                                    metropolitan area. For comparison, we also conducted an
                                    observation at a Postal Service retail site in the Washington,
                                    D.C., metropolitan area. We limited our review to packages
                                    shipped using domestic ground transportation.

                                    This review was conducted from April through
                                    September 2005, in accordance with the President’s
                                    Council on Integrity and Efficiency, Quality Standards for
                                    Inspections. We discussed our observations and
                                    conclusions with appropriate management officials and
                                    included their comments where appropriate.

Prior Audit Coverage                We did not identify any prior audits or reviews related to the
                                    objectives of this review.


8
    FedEx declined to provide benchmarking data, and DHL did not respond to our request.




                                                          4
Benchmarking of Parcel Surcharges                                               DR-MA-05-001




Parcel Surcharge             When FedEx, UPS, and DHL categorize parcel surcharges,
Categories                   they use a much simpler process than the Postal Service’s.
                             We observed the process at the companies’ retail sites and
                             noted best practices that the Postal Service could
                             implement to develop a more effective and less confusing
                             way for retail associates to assess the correct surcharges.

                             The Postal Service uses categories based on package
                             weight, dimensions, and physical characteristics to identify
                             packages that should be assessed a surcharge. The Postal
                             Service categorizes its parcel surcharges as balloon rate,
                             nonmachinable, and oversized.

                             The balloon rate is a surcharge that covers the additional
                             transportation cost the Postal Service incurs for packages
                             that are large and lightweight. The nonmachinable
                             surcharge applies to packages that meet weight, dimension,
                             or physical characteristics, such as cans, rolls, tubes, and
                             wooden or metal boxes. The surcharge applies only to
                             Parcel Post, not Priority Mail packages. The oversized
                             surcharge is a flat rate based on the zone to which a
                             package is addressed and applies only to Parcel Post
                             packages, not Priority Mail packages. See Appendix A for
                             details of Postal Service surcharges.

                             FedEx, UPS, and DHL use categories based on package
                             weight and dimensions to identify packages that should be
                             assessed a surcharge. FedEx, UPS, and DHL use
                             three different oversize categories that include one weight
                             and one dimension requirement within each category. The
                             three companies label these categories Oversize 1,
                             Oversize 2, and Oversize 3. See Appendix B for details
                             of the surcharges these companies assess.

                             When assessing surcharges, Postal Service retail associates
                             must remember at least 10 requirements for nonmachinable
                             packages, in addition to requirements for balloon rate and
                             oversized packages. Retail associates must also remember
                             specific requirements for the method used to mail the
                             package, such as Priority Mail or Parcel Post. Priority Mail
                             packages are assessed the balloon rate but not the
                             nonmachinable or oversized surcharge. Parcel Post
                             packages can be assessed the balloon rate or the




                                              5
Benchmarking of Parcel Surcharges                                                DR-MA-05-001



                             nonmachinable or oversized surcharge. Further, Parcel Post
                             packages can be assessed a dual surcharge, such as a
                             balloon rate and a nonmachinable surcharge.

                             In contrast, FedEx, UPS, and DHL use a much simpler
                             process. Customer service representatives must remember
                             only three oversize categories, and each category has only
                             one weight and one dimension requirement. For example,
                             all 3 companies categorize any package that weighs less
                             than 30 pounds and is greater than 84 inches, but equal to or
                             less than 108 inches in combined length and girth, as
                             Oversize 1.

                             Although Postal Service management ranked the current
                             process used to assess the surcharges as easy to moderate,
                             one manager stated the current process is cumbersome.
                             Another manager stated that the different surcharges and
                             regulations made the process difficult for retail associates.

                             Because the Postal Service’s process requires retail
                             associates to consider several components before they
                             categorize packages requiring surcharges, we believe the
                             Postal Service should consider adopting the best practice
                             the other three delivery companies use: a simpler method of
                             categorizing parcel surcharges.

Suggestion                   We suggest the vice president, Delivery and Retail,
                             coordinate with the vice president, Pricing and Classification,
                             to:

                             1. Consider adopting the best practice that FedEx, UPS and
                                DHL use: a simpler method of classifying the various
                                types of surcharges.

Management’s                 Management agreed with the intent of the finding and
Comments                     suggestion. Management stated they understand that
                             FedEx, UPS, and DHL use simpler parcel surcharges.
                             Management also agreed there may be merit to revisiting
                             their parcel surcharges and exploring where they might
                             possibly be simplified.

Evaluation of                Management’s comments are responsive to the finding and
Management’s                 suggestion. Management’s planned corrective action should
Comments                     correct the issues identified in the finding.




                                               6
Benchmarking of Parcel Surcharges                                                                 DR-MA-05-001



Point-of-Service ONE             The Postal Service could benefit from revising the POS
(POS ONE) and                    ONE9 system to prompt associates to enter package
Internet Rate                    dimensions to assess surcharges. This would ensure the
Calculators                      Postal Service receives the appropriate revenue. In addition,
                                 the Postal Service could modify the Internet rate calculators
                                 to require customers to enter dimensions for all packages to
                                 determine the correct shipping costs.

POS ONE                          Postal Service retail counters are equipped with scales,
                                 and most retail sites use POS ONE to process sales
                                 transactions. Associates are not prompted to enter package
                                 dimensions into the POS ONE system. To determine
                                 whether a package meets the criteria for a surcharge, they
                                 must weigh and measure it. If the package meets the
                                 criteria, POS ONE does not automatically notify associates
                                 to enter the data; instead, they must prompt the system to
                                 assess the surcharge.

                                 We shipped packages at FedEx, UPS, and DHL retail sites
                                 to observe the process they use to assess surcharges, and
                                 noted best practices the Postal Service could use to develop
                                 a more effective and less confusing way for associates to
                                 assess the correct surcharges.

                                 All retail counters at FedEx, UPS, DHL, and the Postal
                                 Service were equipped with scales and computers. During
                                 the transactions, the UPS representative and Postal Service
                                 associate measured and weighed the package. However,
                                 the DHL representative only weighed the package. When
                                 asked why, the DHL representative stated the package was
                                 small compared to packages DHL usually receives, such as
                                 sofas and mattresses.

                                 The FedEx representative weighed the package but did not
                                 measure it because the dimensions were already printed on
                                 the outside of the box. The FedEx representative said he
                                 would have measured the package if the measurements
                                 had not been printed on the box because he needed the
                                 measurements to calculate the shipping charge. Table 3
                                 shows the dimensions of the packages shipped by the
                                 companies and the surcharges they should have assessed
                                 based on their service guides.
9
 POS ONE is an electronic system retail facilities use to record sales and payment transactions. Clerks use POS
ONE to scan universal product code barcodes to record actual sales through a cash register. POS ONE will replace
the Integrated Retail Terminal and will capture information about stamp and retail product sales.




                                                        7
Benchmarking of Parcel Surcharges                                                         DR-MA-05-001




                             Table 3. Package Dimensions, Weight, and Surcharge Category


                                                                       Length/            Surcharge
                                        Length     Width      Height    Girth    Weight   Category
                              Postal      24 in       24 in   20 in    112 in    10 lbs   Oversized
                              Service
                              FedEx       24 in       24 in   24 in    120 in    28.75    Oversize 2
                                                                                  lbs
                              DHL         34 in       24 in   20 in    122 in    36 lbs   Oversize 2
                              UPS         24 in       24 in   20 in    112 in    34.75    Oversize 2
                                                                                  lbs
                             Source: Postal Service Domestic Mail Manual and FedEx, DHL, and UPS
                             Service Guides

                             The UPS representative stated the use of a computer prompt
                             makes the process easy. However, the representative
                             stated the process can be difficult for customer service
                             representatives who only occasionally receive packages.
                             Postal Service management also stated a computer prompt
                             would simplify identifying and assessing the parcel
                             surcharges.

                             The Postal Service should consider adopting the best
                             practice of using a prompt in POS ONE to remind the retail
                             associates to enter package dimensions.

Internet Rate                The Postal Service and the three companies have Internet
Calculators                  rate calculators that customers use to estimate shipping
                             costs for packages. FedEx, UPS, and DHL Internet rate
                             calculators require customers to enter package dimensions
                             and weight to estimate shipping cost. However, the Postal
                             Service Internet rate calculator does not require customers
                             to enter package dimensions unless they select the “large
                             package” option.

                             The Postal Service Internet rate calculator requires
                             customers to enter the package weight; however, if
                             customers enter only the weight and select the “parcel
                             package” option, the system bypasses the requirement to
                             enter package dimensions. As a result, customers who use
                             the Internet rate calculator to estimate the shipping cost may
                             calculate the cost incorrectly. The Postal Service Internet
                             rate calculator advises the customer if the package may be
                             charged a balloon rate, nonmachinable, or oversized
                             surcharge. The Postal Service should consider adopting the
                             best practice of using a prompt on the Internet rate calculator




                                                  8
Benchmarking of Parcel Surcharges                                                DR-MA-05-001



                             to require customers to enter package dimensions to ensure
                             they receive the correct estimate.

Suggestion                   We suggest the vice president, Delivery and Retail:

                             2. Enhance the Point-of-Service (POS ONE) system to
                                require retail associates to enter package dimensions to
                                calculate the surcharge before assessing total shipping
                                costs.

Management’s                 Management agreed with the intent of our finding and
Comments                     suggestion. Management stated they agreed the POS ONE
                             system should be enhanced to allow dimension prompts for
                             parcel surcharges. Management also stated efforts were
                             currently underway to modify POS ONE as well as
                             Integrated Retail Terminal systems to start prompting for
                             dimensions on some packages.

Evaluation of                Management’s comments are responsive to our finding and
Management’s                 suggestion. Management’s planned corrective action should
Comments                     correct the issues identified in the finding.

Suggestion                   We suggest the vice president, Delivery and Retail,
                             coordinate with vice president, Pricing and Classification and
                             vice president, Product Development, to:

                             3. Add a prompt to the Internet rate calculator requiring
                                customers to enter package dimensions to assess
                                surcharges before calculating the total shipping costs.

Management’s                 Management disagreed with the finding and suggestion.
Comments                     Management stated the rate calculator is only an
                             informational tool, not a rate assessment vehicle like POS
                             ONE or Click-N-Ship. However, management stated they
                             should consider defining some parameters for the “large
                             package” option, which activates the dimensional-input
                             prompts.

Evaluation of                While management disagreed with our suggestion, their
Management’s                 planned action is responsive to the finding and suggestion.
Comments




                                               9
Benchmarking of Parcel Surcharges                                              DR-MA-05-001




                             We appreciate the cooperation and courtesies provided by
                             your staff during the review. If you have any questions or
                             need additional information, please contact Rita Oliver,
                             Director, Delivery and Retail, or me at (703) 248-2300.

                             /s/ Mary W. Demory

                             Mary W. Demory
                             Deputy Assistant Inspector General
                              for Core Operations

                             Attachments

                             cc: Alexander Lazaroff
                                 Janet L. Webster
                                 Frederick J. Hintenach III
                                 Steven R. Phelps




                                              10
Benchmarking of Parcel Surcharges                                                                  DR-MA-05-001



            APPENDIX A. POSTAL SERVICE PARCEL SURCHARGES10
         Surcharge             Requirements                Priority Mail                Parcel Packages
      Balloon Rate
                               Weight                Less than 15 lbs.              Less than 15 lbs.
                               Dimensions            Greater than 84 ins.           Greater than 84 ins.
                                                     but equal to or less           but equal to or less
                                                     than 108 ins. in               than 108 ins. in
                                                     combined length and            combined length and
                                                     girth                          girth
      Nonmachinable
                               Weight                Not applicable11               Less than 6 oz. or
                                                                                    more than 35 lbs., or
                               Dimensions                                           Exceeds 17 ins. in
                                                                                    height, or
                                                                                    Exceeds 17 ins. in
                                                                                    width, or
                                                                                    Exceeds 34 ins. in
                                                                                    length, or
                                                                                    Less than 6 ins. long,
                                                                                    ¼ in. thick, or 3 ins.
                                                                                    high, or
                               Physical                                             Is a can, roll, tube,
                               characteristics                                      wooden or metal box,
                                                                                    or
                                                                                    Insecurely wrapped or
                                                                                    metal-banded parcel,
                                                                                    or
                                                                                    A film case weighing
                                                                                    more than 5 lbs., or
                                                                                    Inadequately
                                                                                    packaged parcels that
                                                                                    could result in
                                                                                    damage, or
                                                                                    Parcel containing
                                                                                    more than 24 oz. of
                                                                                    liquid in glass
                                                                                    containers.
      Oversize
                               Weight                Not applicable                 Not applicable
                               Dimensions                                           More than 108 ins. but
                                                                                    not more than 130 ins.
                                                                                    in combined length
                                                                                    and girth


10
     Domestic Mail Manual, Issue 58, updated January 6, 2005.
11
     Priority Mail parcels are not assessed the nonmachinable or oversized surcharge.




                                                           11
Benchmarking of Parcel Surcharges                                                               DR-MA-05-001



     APPENDIX B. FEDEX, UPS, AND DHL PARCEL SURCHARGES12
   Surcharge             Requirement             FedEx                    UPS                      DHL
 Oversize 1 (OS1)
                        Weight              Less than 30 lbs.      Less than 30 lbs.       Less than 30 lbs.
                        Dimensions          Greater than           Greater than            Greater than
                                            84 ins. but equal      84 ins. but equal       84 ins. but equal
                                            to or less than        to or less than         to or less than
                                            108 ins. in            108 ins. in             108 ins. in
                                            combined length        combined length         combined length
                                            and girth              and girth               and girth
 Oversize 2 (OS2)
                        Weight              Less than 50 lbs.      Less than 50 lbs.       Less than 70 lbs.
                        Dimensions          Greater than           Greater than            Greater than
                                            108 ins. but equal     108 ins. but equal      108 ins. but equal
                                            to or less than        to or less than         to or less than
                                            130 ins. in            130 ins. in             165 ins. in
                                            combined length        combined length         combined length
                                            and girth              and girth               and girth
 Oversize 3 (OS3)
                        Weight              150 lbs. or less       150 lbs. or less        90 lbs. or less
                        Dimensions          Greater than           Greater than            Greater than
                                            130 ins. in            130 ins. in             130 ins. but equal
                                            combined length        combined length         to or less than
                                            and girth              and girth               165 ins. in
                                                                                           combined length
                                                                                           and girth
 Excess Limits
                                            $30 for any            $45 for any             $60 for any
                                            package                package                 package
                                            measuring              measuring               measuring
                                            greater than           greater than            greater than
                                            130 ins. in            130 ins. in             165 ins. in
                                            combined length        combined length         combined length
                                            and girth              and girth               and girth




12
 Package rates and surcharges are from the FedEx Service Guide, January 3, 2005, updated April 4, 2005; the UPS
Rate and Service Guide, Retail Rates, effective January 3, 2005; and the DHL Standard Rate Guide, effective
January 16, 2005.




                                                      12
Benchmarking of Parcel Surcharges                         DR-MA-05-001



                      APPENDIX C. MANAGEMENT’S COMMENTS




                                    13
Benchmarking of Parcel Surcharges        DR-MA-05-001




                                    14
Benchmarking of Parcel Surcharges        DR-MA-05-001




                                    15
